FY 2006 Performance and Accountability Report


Management’s Discussion and Analysis
Inspector General’s FY 2006 Assessment




46               Management’s Discussion and Analysis─Inspector General’s Assessment
                                 FY 2006 Performance & Accountability Report




Management’s Discussion and Analysis─Inspector General’s Assessment        47
FY 2006 Performance and Accountability Report




48               Management’s Discussion and Analysis─Inspector General’s Assessment
                                 FY 2006 Performance & Accountability Report


Management Addresses Inspector General’s FY 2005 Assess-
ment

In the FY 2005 Performance and Accountability Report, the Inspector General
identified two “serious management challenges” facing the Commission: 1)
Human Resource Planning, and 2) Challenges in the Marketplace.

The following is the Inspector General’s FY 2005 assessment for each challenge
and the Commission’s actions taken in FY 2006 to address these challenges.

Challenge #1, Human Resource Planning

FY 2005 IG Assessment:
“Last year, we highlighted the forthcoming human resource challenge likely to
be faced by the agency in FY 2006. This year that challenge is ever more
apparent. By March 2006, current estimates are that over 20 percent of CFTC
staff including 28 percent of the agency’s leadership positions will be eligible for
retirement. Consequently, based on these factors, this is a significant challenge
faced by a relatively small Federal agency which will necessitate careful
planning by management. The OIG is heartened by the agency’s decision to
establish a Human Capital Team to catalogue current skills of existing
employees and propose possible pathways for meeting this potential deficit that
is likely to occur in the next six months. We look forward to the agency
successfully accommodating the approaching wave of employee retirements
without materially disrupting the performance of the agency.”

FY 2006 Actions Taken or Actions in Progress:
    •   To assure high-level attention to human capital planning issues on an
        ongoing basis, agency leadership directed the formation of the Pay Parity
        Governance Committee (PPGC), in March 2006. The PPGC is a
        permanent body with rotating membership from all offices, divisions,
        and regions and is charged with identifying, studying, and
        recommending solutions to agency human resources challenges,
        particularly those that may be positively affected by pay parity. It focuses
        on effective use of the agency’s authority to seek total compensation
        parity with the other Federal financial regulators, as provided by the
        2002 amendments to the CEA, in support of attracting, retaining, and
        developing agency talent. The Office of Human Resources (OHR)
        provides two technical representatives to support committee research
        and communications. By meeting weekly since March of 2006, the PPGC
        has made significant progress by completing its initial project to prepare
        a compensation philosophy that will guide future pay parity program
        choices and to update the agency performance management system so it
        can support the move to a modern pay-for-performance system. These
        initiatives will provide the requisite foundation of an improved ability to
        account for and reward results, which will in turn support effective
        implementation of programs to strategically manage agency human
        capital assets.

Management’s Discussion and Analysis─Inspector General’s Assessment              49
FY 2006 Performance and Accountability Report

     •   Based on the successful launch of the Strategic Workforce Planning
         Survey system in 2005, OHR has worked with managers to help them act
         on that objective and provided quantitative data that details the areas
         and timeframes in which they stand to lose specific types and levels of
         mission critical employee job competencies through retirements or other
         attrition. By providing assistance in the use of the online Talent
         Management Action Plan template, OHR has encouraged planning and
         responsive action by managers to close the potential talent gaps in their
         units, since the tool facilitates creation of targeted, prioritized human
         capital plans down to the level of individual work units. At the same
         time, OHR and the Office of Information and Technology Services (OITS)
         have met regularly during the year to enhance the reporting capability of
         the Strategic Workforce Planning Survey system, so that managers will
         continue to receive data on competencies at risk of loss. Finally, OHR
         and OITS supported the first annual update by employees of their online
         self-assessment surveys, so that the inventory of employee job
         competencies available to meet the agency mission remains up to date.

     •   In addition to aiding individual offices and divisions and their subunits
         to create specific action plans, OHR has acted to address human resource
         challenges that apply across the agency. Armed with data on trends such
         as the potential of 40 percent of CFTC supervisory and managerial
         personnel to retire by 2009, OHR has rolled out a customized suite of
         online managerial courses from Harvard Business School Publishing and
         prepared, during FY 2006, to provide all employees with the Skillsoft
         online training facility. By funding these initiatives, agency management
         has acted to train employees in the managerial skills required to close the
         gap in this crucial agency competency that would otherwise develop due
         to inevitable retirements.

     •   OHR staff have continued to represent the agency on the Financial
         Regulatory Agency Group, comprised of Human Resources staff from the
         financial regulatory agencies that, like the CFTC, must seek
         comparability with one another under their legislative authority to offer
         pay and benefits outside of the normal limitations of Title 5 of the U.S.
         Code that apply to General Schedule and Senior Executive Service
         positions. These contacts assure that OHR maintains current awareness
         of pay parity issues, knowledge that is vital to supporting use of the CFTC
         pay parity authority as a mainstay of strategic planning to compete for
         mission-critical skills over time.

     •   OHR staff continue to implement administrative improvements that will
         speed the recruitment of replacements for retiring employees, when
         directed. These include online systems that speed security and suitability
         checks on candidates for employment and support more efficient
         administrative processes. Examples include the project now underway to
         convert to the government-wide system of electronic Official Personnel
         Folders under the Office of Personnel Management’s Enterprise Human
         Resources Integration program.
50                   Management’s Discussion and Analysis─Inspector General’s Assessment
                                 FY 2006 Performance & Accountability Report

Challenge #2, Challenges in the Marketplace

FY 2005 IG Assessment:
“The Commodity Futures Modernization Act of 2000 (CFMA) transformed the
agency from a prescriptive regulator into an oversight regulatory agency. The
agency’s regulatory mission over the futures industry is guided by core
principles stated in the CFMA. Recent innovations in the industry such as the
initial public offerings of major Chicago based futures exchanges and futures
commission merchants (FCM) have broadened the impact of any malfeasance
within the futures industry. How the agency handles unanticipated events such
as market disruptions and FCM bankruptcies will be closely watched by a
worldwide audience. To date, management has handled major turbulences that
have occurred during the fiscal year.”

FY 2006 Actions Taken or Actions in Progress:
    •   Commission staff reviewed for compliance with the CEA and the
        Commission’s regulations, filings of exchanges submitted to the SEC
        prior to demutualization and initial public offering, including the review
        of the CBOT initial public offering and ongoing review of preparations for
        the NYMEX initial public offering. Staff also have been in contact with
        SEC staff when requests arise.

    •   Commission staff reviewed for compliance with the CEA and the
        Commission’s regulations, exchange notifications to the Commission,
        including merger agreements and purchase and sale agreements, under
        Commission Regulation 38.5(d) when equity in an exchange is acquired
        by a new owner, including review of the acquisitions of equity in
        HedgeStreet, NYMEX and OneChicago. Such review includes evaluation,
        for compliance with the CEA and the Commission’s regulations, of both
        new exchange governance documents and changes to those documents,
        including bylaws, articles of incorporation, and limited liability
        agreements or operating agreements.

    •   As part of its rule enforcement reviews, Commission staff considered the
        impact of such changes on the ability of the exchanges to continue to
        carry out their self-regulatory responsibilities.

    •   As a result of financial difficulties experienced by Refco, Inc the parent of
        Refco LLC, a Commission-registered FCM, the Commission mobilized its
        staff to ensure that all customer segregated funds at Refco LLC, were pro-
        tected until such time as they were transferred in an orderly manner to
        other FCMs – including the eventual sale of the remaining customer ac-
        counts and certain other assets of Refco LLC, to Man Financial, Inc.
        (Man) on November 25, 2005. CFTC staff took the following steps to en-
        sure that customers were fully protected: 1) examining the FCM’s books
        and records; 2) undertaking daily calls with Refco staff on issues ranging
        from transfers of accounts, to satisfaction of clearing obligations, to re-
        quests to withdraw capital from the FCM; and 3) coordinating with Com-
        mission-registered DCOs to ensure that transactions were processed in a

Management’s Discussion and Analysis─Inspector General’s Assessment               51
FY 2006 Performance and Accountability Report

       timely manner. The Commission also took an active role in the eventual
       sale of certain Refco LLC, assets during the bankruptcy proceeding, in-
       cluding consultations with the exchanges, Refco, and potential bidders
       concerning the means by which the assets could lawfully be sold.




52                Management’s Discussion and Analysis─Inspector General’s Assessment
